September 30, 2009

STEVEN J. FORTE
SENIOR VICE PRESIDENT, OPERATIONS

SUBJECT:         Audit Report – Fuel Management Consumption Strategies for Surface
                 Network Operations (Report Number NL-AR-09-010)

This report presents the results of our self-initiated review of Fuel Management
Consumption Strategies for Surface Network Operations1 (Project Number
08XG029NL001). The objective was to assess the effectiveness of the U.S. Postal
Service’s consumption strategy for reducing the use of fuel within surface network
operations. This report addresses strategic, financial, and operational risks. See
Appendix A for additional information about this audit.

Conclusion

The Postal Service has taken positive steps to implement a strategy to reduce fuel
consumption within surface network operations mainly by eliminating excess
transportation capacity. Additionally, the Postal Service undertook a significant initiative
to reduce capacity further by realigning its network2 and added to its strategy by
exploring the expanded use of alternative fuel vehicles.

However, the Postal Service could implement a more effective fuel strategy by adopting
some key industry best practices to increase fuel efficiency and reduce overall fuel use.
These best practices include the following: adding aerodynamic equipment; ensuring
proper tire pressure, and limiting truck speeds. If these practices are implemented, we
estimate the Postal Service could reduce fuel use by more than 25 million gallons
annually, saving about $364.2 million in fuel costs.

More Effective Fuel Consumption Strategy Needed

The Postal Service has primarily focused on eliminating excess transportation capacity
and the exploration of alternative fuel vehicles as its fuel management strategy,
because management believed those areas had the most significant fuel reduction


1
  Surface network operations include two categories of transportation — contracted transportation furnished by
highway contract route (HCR) suppliers, and transportation using Postal Service vehicles and employees.
2
  The Postal Service has recently undertaken the Network Distribution Center (NDC) initiative, which management
states will significantly reduce excess capacity in surface transportation.
Fuel Management Consumption Strategies                                                                 NL-AR-09-010
 for Surface Network Operations


potential. Consequently, management has not focused on other key industry best
practices for fuel reduction. Specifically, we found

        The Postal Service does not require that postal-owned, leased, and contractor-
         furnished trailers be equipped with industry recommended fuel-efficient
         aerodynamic equipment. This could decrease diesel fuel consumption by more
         than 19.6 million gallons annually and potentially save $335.9 million over a 10-
         year period.

        The Postal Service does not have maintenance and contract requirements
         consistent with industry best practices to ensure that postal-owned, leased, and
         contract-furnished vehicles maintain proper tire inflation. This could decrease
         fuel consumption by more than 5.7 million gallons3 annually and potentially save
         $28.3 million over a 2-year period.

        The Postal Service does not require contractors to drive vehicles at limited
         speeds when feasible, which would reduce fuel consumption by as much as
         6 percent.4

Implementation of these key industry best practices will facilitate further achievement of
fuel consumption goals as outlined in the Postal Service’s Strategic Transformation
Plan.5 See Appendix B for our detailed analysis of this topic, Appendix C for a summary
of estimated savings on aerodynamic equipment, and Appendix D for a summary
estimated savings on proper tire inflation practices.

We recommend the Senior Vice President, Operations:

1. Revise the fuel consumption strategy for surface network operations covering Postal
   Service and highway contract route transportation to ensure that it is comprehensive
   and implements the industry best practices identified in our audit.

2. Assess and implement all opportunities for owned, leased, and contracted vehicles
   to use technology to reduce wind resistance and identify the most viable advanced
   aerodynamics options consistent with industry best practices and adjust contracts as
   appropriate to account for the reduced fuel need.6


3
   We only included fuel consumption related to postal owned heavy-duty vehicles (trucks and cargo vans), as well as
leased and contracted vehicles in our calculation of potential savings.
4
   While studies show fuel consumption can be decreased by as much as 6 percent, we were unable to determine the
monetary impact associated with implementing this best practice because doing so would require extensive, detailed
review of all contracts to determine the impact of speed reduction on service.
 5
   The United States Postal Service’s Strategic Transformation Plan 2006–2010 (updated in December 2007),
addresses reducing energy use in transportation operations by optimizing the postal-owned fleet and seeking out the
best value available in contract transportation.
6
   The Postal Service should consider first adopting advanced trailer aerodynamic equipment on those trailers used for
long distance trips to generate the greatest savings opportunity and quickest return on investment.




                                                          2
Fuel Management Consumption Strategies                                          NL-AR-09-010
 for Surface Network Operations


3. Establish and implement tire inflation maintenance requirements for postal-owned
   heavy-duty vehicle fleet, as well as postal leased, and contracted vehicles consistent
   with industry best practices and adjust contracts as appropriate to account for the
   reduced fuel need.

4. Assess the feasibility of implementing tire inflation requirements in accordance with
   industry best practices for postal light-duty vehicles (delivery and administrative
   vehicles).

5. Evaluate highway contract routes, and where feasible, implement speed limit
   requirements consistent with industry best practices, and adjust contracts as
   appropriate to account for the reduced fuel need.

Management’s Comments

Management generally agreed with recommendations 1, 2, 3, and 5, but disagreed with
recommendation 4. Management also disagreed with our monetary impact calculations.

Management responded that a major challenge facing the Postal Service is to reduce
energy use and costs as much as possible without adversely impacting operational
capabilities or work environments. Management noted that fuel management
consumption strategies would be prioritized in fiscal year (FY) 2010 and implemented
with other planned cost reduction initiatives where it is most beneficial to generate the
greatest savings opportunity and the quickest return on investment. Further,
management stated they will establish a cross-functional working group in FY 2010 that
will structure an implementation approach for adopting aerodynamic equipment to
reduce wind resistance by initially targeting contracted vehicles operating long-haul
transportation routes; evaluate tire inflation maintenance requirements for leased and
contracted vehicles; and revisit the current speed limit policy for highway contract
routes.

Regarding recommendation 4, management stated that during informal report
discussions with the U.S. Postal Service Office of Inspector General (OIG), they
noted numerous challenges associated with implementing tire pressure
requirements for Postal Service light-duty vehicles (delivery and administrative
vehicles), such as possible restrictions on letter carriers being required to perform
tire inflation checks. Since the meeting with the OIG, management’s assessment of
the feasibility of this recommendation found a reference to a 1983 grievance
decision specifying full-time regular carriers will not be required to use a tire gauge
to check tire inflation. Management further stated that tire pressure for light-duty
vehicles is checked twice a year during scheduled maintenance, and there is not a
feasible means to accomplish monthly tire pressure maintenance for light-duty
vehicles without incurring additional operating costs.




                                             3
Fuel Management Consumption Strategies                                         NL-AR-09-010
 for Surface Network Operations


Regarding our monetary impact methodology, management noted that the methodology
does not consider all associated costs with implementing best practices. Further,
management stated that our methodology does not determine the return on investment
period, and that cost savings for adopting aerodynamic equipment would potentially
change if a full analysis incorporated all fleet variables for owned, leased, and
contracted trailers. Additionally, management stated the assumptions for capturing
potential savings associated with maintenance and contract requirements to maintain
tire inflation are broad and will add costs, noting that calculations assume the Postal
Service can compress maintenance schedules on the heavy-duty fleet down to a
monthly cycle. However, management stated that there may be an opportunity to
require suppliers to maintain tire pressure to meet the best practices standard, and the
proposal would require additional assessment including whether some suppliers already
perform routine inspections of their tire pressure. Management’s comments, in their
entirety, are included in Appendix E.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report, and their corrective actions should resolve the issues identified. Regarding
management’s disagreement with recommendation 4, we discussed the operational
environment and other challenges relating to tire pressure maintenance for light-duty
vehicles before issuing the draft report. Further, we modified our draft report and
recommendation 4 accordingly in light of these concerns and the operational
environment, and recommended that management “assess the feasibility” of requiring
more frequent tire pressure maintenance for light-duty vehicles. In their response,
management addressed the recommendation by stating they have already assessed
the feasibility and determined it not to be cost effective.

Regarding management’s comments on our monetary impact calculations, we believe
our approach and methodology to be sound. Further, we agree with management that
savings could potentially change if a full analysis is performed with all fleet variables
considered. Our assumptions were based on the most conservative research and data,
such as applying an 8 percent savings range to aerodynamic equipment when the
research supports a range of 8 to 16.5 percent, or using 2 percent for savings from tire
pressure maintenance when research supports a range of 2 to 15 percent. Further, we
considered and offset purchase and installation costs for aerodynamic equipment
totaling over $98 million, but recognize that the Postal Service might obtain better
pricing through negotiations and volume purchases. We also noted in the report, as the
cost of fuel increases, the opportunity for the Postal Service to save fuel costs increases
proportionately. Finally, our report does address return on investment, and we advised
management during the audit that they are in the best position to determine actual
return on investment and payback period after assessing viability of the options and
determining actual costs related to adopting advanced aerodynamic equipment.




                                             4
Fuel Management Consumption Strategies                                     NL-AR-09-010
 for Surface Network Operations


The OIG considers recommendations 1, 2, 3, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

cc: Patrick R. Donahoe
    Joseph Corbett
    Jordan M. Small
    Linda J. Welch
    Susan M. Brownell
    Samuel M. Pulcrano
    Cynthia F. Mallonee
    Wayne Corey
    Carolyn C. Cole
    Bill Harris




                                          5
Fuel Management Consumption Strategies                                                                 NL-AR-09-010
 for Surface Network Operations


                                     APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service operates the largest civilian ground transportation fleet in the world,
with approximately 221,000 delivery, transportation, and other vehicles. Further, the
Postal Service has highway transportation contracts with more than 10,500 suppliers,
covering more than 17,600 highway contract transportation routes.7 As a result, it is
one of the largest consumers of fuel in the United States, spending about $1.6 billion on
fuel for their ground transportation network during FY 2008. The postal-owned and
contracted surface transportation travels about 3 billion miles per year to transport and
deliver mail and uses more than 400 million gallons of diesel fuel and gasoline annually.
In FY 2008, HCR suppliers used approximately 255 million gallons of fuel (primarily
diesel fuel) totaling more than $962 million. Additionally, drivers of postal-owned
vehicles, including delivery, transportation, and administrative vehicles, used the
remaining 146 million gallons of fuel (primarily gasoline) totaling more than $633 million.

A major challenge for the Postal Service is to reduce fuel consumption and costs as
much as possible without adversely impacting operational capabilities. The fact that
diesel and gasoline prices have been extremely volatile over the past 24 months has
added to the challenge. Diesel and gasoline peaked at $4.76 per gallon and $4.11 per
gallon, respectively, in mid-2008 before dropping to a low of $2.02 per gallon and $1.61
per gallon, respectively, in late 2008 and early 2009 as reflected in Table 1.

                                            Table 1: Fuel Prices

                                             Diesel Fuel              Regular Gasoline
                  High Cost
                  Retail Price per
                                                  $4.76                        $4.11
                  Gallon
                  Week ending                 July 14, 2008                July 7, 2008
                  Low Cost
                  Retail Price per
                                                  $2.02                        $1.61
                  Gallon
                  Week ending                March 16, 2009            December 29, 2008



The postal fuel costs in FY 2008 increased more than $500 million over fuel costs in
FY 2007 because of volatile fuel prices, making transportation the fastest growing cost
segment in the Postal Service’s budget. Figure 1 reflects the volatility of fuel prices over
the past 24 months.


7
  HCRs cover the transportation of mail and equipment, and “box delivery” covers the delivery and collection of mail
to and from homes and businesses. The services provided by the HCR box delivery carrier are identical to those
provided by postal rural route carriers.




                                                          6
Fuel Management Consumption Strategies                                                               NL-AR-09-010
 for Surface Network Operations




National Energy Management Strategy. In November 2008, the Postal Service
developed a National Energy Management Strategy (NEMS) to manage energy use and
help achieve its goal of enhancing sustainability as outlined in its 2006-2010 Strategic
Transformation Plan.8 Specifically, the purpose of the NEMS is to establish an energy
management strategy that focuses on reducing consumption and costs, while
supporting continuity of operations. The NEMS identifies energy goals, objectives, and
strategies for all aspects of operations, and identifies five strategic target areas: fuel
management, fleet management, facility energy management, utility management, and
energy awareness. The responsibility for managing fuel consumption falls on several
organizations, including the nine Postal Service geographical Areas, Network
Operations, Delivery and Postal Operations, and Engineering.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the effectiveness of the Postal Service’s consumption
strategies for reducing the use of fuel within surface network operations. To accomplish
our objective, we interviewed Postal Service Network Operations, Delivery and Post
Office Operations, Supply Management, Sustainability, and Vehicle Maintenance
Facility officials and staff to obtain an understanding of the fuel management
consumption strategy and its history. Additionally, we contacted HCR suppliers and
companies within the transportation and logistics industry to discuss current fuel
consumption best practices. We reviewed the Postal Service’s fuel consumption
policies, including NEMS and other relevant policies and procedures. Additionally, we
researched best practices for reducing fuel consumption costs and compared them with
the Postal Service’s consumption strategy and current practices to determine whether
the Postal Service considered all feasible options to reduce fuel consumption in its
surface network operations.


8
 The United States Postal Service Strategic Transformation Plan 2006–2010 (updated in December 2007),
addresses reducing energy use in transportation operations by optimizing the postal-owned fleet and seeking out the
best value available in contract transportation.




                                                         7
   Fuel Management Consumption Strategies                                                  NL-AR-09-010
    for Surface Network Operations


   We conducted this performance audit from December 2008 through September 2009, in
   accordance with generally accepted government auditing standards and included such
   tests of internal controls, as we considered necessary under the circumstances. Those
   standards require that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based on our
   audit objective. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based on our audit objective. We relied on purchasing and
   consumption data obtained from Postal Service officials and data systems. We did not
   test controls over the Postal Service data systems. We performed limited data integrity
   reviews, including discussions with officials to support our reliance on the data.

   We discussed our observations and conclusions with management on August 26, 2009,
   and included their comments where appropriate.

   PRIOR AUDIT COVERAGE

   The OIG and Government Accountability Office (GAO) issued two reports related to fuel
   management, within the past 3 years.


  Report Title      Report Number      Final Report Date                     Report Results

Fuel Management      NL-MA-09-001           August 5, 2009   The Postal Service has taken positive steps in
Initiatives for                                              developing a fuel purchasing strategy to
Surface Network                                              promote efficiencies and realize cost savings in
Operations – Fuel                                            acquiring fuel. However, the Postal Service did
Purchasing                                                   not fully plan and implement their fuel
Strategy                                                     purchasing strategy to ensure that the desired
                                                             outcomes were accomplished in a timely
                                                             manner. Because of the implementation
                                                             delays, the Postal Service incurred about
                                                             $20 million in unnecessary fuel acquisition
                                                             costs.
Vulnerability to     GAO-07-244        February 16, 2007     The Postal Service’s actions to control fuel
Fluctuating Fuel                                             costs were generally consistent with industry
Prices Requires                                              procurement and consumption practices, but
Improved                                                     the Postal Service could improve in a couple of
Tracking and                                                 areas. First, the Postal Service was highly
Monitoring of                                                vulnerable to fuel price volatility, in part
Consumption                                                  because its fuel purchasing process involved
Information                                                  buying fuel as needed, particularly at retail
                                                             locations. In addition, the Postal Service had
                                                             incomplete data on its fuel procurement
                                                             programs, because it did not have an effective
                                                             system to track or monitor fuel use.




                                                     8
Fuel Management Consumption Strategies                                                           NL-AR-09-010
 for Surface Network Operations


                               APPENDIX B: DETAILED ANALYSIS

More Effective Fuel Consumption Strategy Needed

The Postal Service has taken positive steps by implementing some opportunities to
reduce fuel consumption within surface network operations. We determined the Postal
Service’s fuel consumption strategy primarily focuses on the elimination of excess
transportation capacity and the exploration of alternative fuel vehicles. The Postal
Service reported that it eliminated 7.7 million miles from its transportation contracts in
FY 2008.

In addition, the Postal Service undertook the NDC initiative to reduce capacity further by
realigning its network. The Postal Service also has more than 36,000 ethanol-capable
vehicles and is currently testing and monitoring the performance of a variety of fuel
alternatives, including biodiesel, compressed natural gas, propane, electric vehicles,
hybrid technologies, clean diesel vehicles, and fuel cell vehicles.

However, the strategy does not include key industry best practices9 to increase fuel
efficiency and reduce overall fuel use as follows.

Adopting Advanced Trailer Aerodynamics. In its Transformation Plan, the Postal
Service proposes to reduce energy use and acknowledges that wise investments in
energy efficient equipment today will pay dividends continuously over time. However,
postal management did not consider fuel-efficient advanced aerodynamic equipment for
trailers in the Postal Service’s fuel strategy for reducing fuel consumption. We found
the Postal Service does not require postal-owned, leased, and contracted trailers be
equipped with industry recommended fuel-efficient advanced aerodynamic equipment.

Our review of industry best practices for trailers identified several opportunities to
reduce vehicle wind resistance and save fuel for trailers. Side fairings (trailer skirts) and
gap fairings are two advanced aerodynamic opportunities that are not currently used on
postal-owned or leased trailers and are not required contractually for HCR suppliers.




9
 The Postal Service has implemented some of these opportunities to varying degrees on some components of its
surface network operations, which includes postal-owned, leased, and contracted vehicles.




                                                       9
Fuel Management Consumption Strategies                                                                           NL-AR-09-010
 for Surface Network Operations




        Figure 2: Example of side fairing (trailer skirt): a        Figure 3: Example of a gap fairing to reduce drag
        durable, flexible, and lightweight wind deflector.          space between the tractor and the trailer. Freight
                  Freight Wing product shown.                               Wing Gap Fairing product shown.


As shown in Table 2, at 60 miles per hour (mph), 21 percent of the total energy
expended by tractor-trailers is used to overcome wind resistance.

                                 Table 2: Energy Use in Tractor Trailers10


                                     Vehicle Part/Effort                       Energy Expended


                                             Engine                                  56 percent
                                         Aerodynamics                                21 percent
                                              Tires                                  13 percent
                             Engine idling & auxiliary equipment                      8 percent
                                         Transmission                                 1 percent
                                            Driveline                                 1 percent
                                              Total                                 100 percent



Recent studies have shown that with existing technologies, opportunities exist to
increase the average fuel efficiency for tractor-trailers from about 7 miles per gallon
(mpg) to 11.5 mpg. A significant portion of the projected fuel efficiency increases is
from aerodynamics specifically related to trailers. Based on industry studies, side and
gap fairings can conservatively provide fuel consumption savings of 6 percent and 2
percent, respectively.11 Based on an average of various manufacturers’ estimated
wholesale prices and manufacturers’ estimated installation costs, the addition of these



10
   Rocky Mountain Institute, “Transformational Trucks: Determining the Energy Efficiency Limits of a Class-8 Tractor-
Trailer,” July 2008.
11
   As documented in studies by the U.S. Department of Energy (DOE), U.S. Environmental Protection Agency (EPA),
and the California Air Resource Board (CA ARB). It is also supported by Society of Automobile Engineers -certified
studies performed by aerodynamic equipment producers.




                                                               10
Fuel Management Consumption Strategies                                                                    NL-AR-09-010
 for Surface Network Operations


two items would cost the Postal Service approximately $1,878 per trailer.12 During our
review, we were able to obtain only approximate pricing. The Postal Service, however,
might obtain better pricing through negotiations with the manufacturers.

Table 3 shows the associated consumption savings rate and the estimated cost of
adding side and gap fairing equipment on trailers.

              Table 3: Aerodynamic Equipment and Increased Fuel Economy

                                                                    Fuel               Estimated Cost
                                                                Consumption           of Equipment per
                           Modification                         Savings Rate               Trailer
                     Side fairings (trailer skirts)               6 percent                  $1,233

                             Gap fairings                         2 percent                  $ 645

                                Total                             8 percent                  $1,878



See Appendix C for a summary of the estimated savings the Postal Service can realize
by implementing side and gap fairings on postal-owned, leased, and contracted trailers.

Maintaining Proper Tire Inflation. The Postal Service’s maintenance and contract
requirements are inconsistent with industry best practices to ensure that postal-owned,
leased, and contractor-furnished vehicles maintain proper tire inflation that results in
efficient fuel consumption. Recent studies from government agencies and tire
manufactures support that improper tire pressure will result in decreased fuel efficiency,
which can be as much as 0.4 percent for every pound per square inch (PSI) a tire is
underinflated.13 Studies also show that fuel-efficient tire inflation practices can improve
fuel consumption from 2 percent to 15 percent,14 as shown in Table 4.




12
   The CA ARB’s comprehensive study, supported by the industry, concluded the return on investment achieved by
adopting advanced aerodynamic equipment for trailers averaged about 18 months. The “payback” period range was
from a few months to 3 years depending on the nature of fleet operations and the miles driven. The Postal Service
must determine its actual equipment costs and the number of trailers that warrant application of the advanced
aerodynamic equipment to calculate the actual payback period.
13
   Industry research has shown that underinflated tires are prevalent throughout the industry. For example, industry
studies show that 56.7 percent of all vehicle tires are not inflated within 5 PSI of proper air pressure. Given the Postal
Service’s current maintenance practices and the lack of HCR contract requirements for tire pressure maintenance,
postal--owned and contracted vehicles would also be significantly underinflated. Further, as time passes, absent a
fuel-efficient tire pressure maintenance program, all tires can become underinflated at different rates depending on
time and multiple external factors that affect the tire pressure. As such, the goal of monthly or more frequent tire
pressure inspections and maintenance is to keep the fleet as a whole closer to proper tire pressure levels, which
result in more fuel efficiency for the fleet as a whole.
14
   Fuel savings rates for instituting fuel-efficient tire inflation practices are based on industry leading practices and
research published by various government agencies, private companies, and academic institutions.




                                                           11
Fuel Management Consumption Strategies                                                                  NL-AR-09-010
 for Surface Network Operations


Table 4: Fuel Consumption Savings Rates Derived from Industry Studies for Fuel-
                        Efficient Tire Inflation Practices-
                Light-Duty Vehicles15 and Heavy-Duty Vehicles16
                                                            
                                                       Vehicle              Fuel Consumption
                            Source
                                                        Class                 Savings Rate
                        PressureGuard                 Heavy-Duty                  2 percent
                              DOE                      Light-Duty                2.5 percent
                       California Energy               Light-Duty                 3 percent
                           DOE/EPA                     Light-Duty               3 - 3.3 percent
                   Peterbilt Motors Company           Heavy-Duty                 3.3 percent

                          Etrucker.com                Heavy-Duty                  5 percent

                          Tirelyna.com                Heavy-Duty                 5-10 percent
                      University of Illinois          Heavy-Duty                  6 percent
                            Reuters                    Light-Duty                 10 percent
                        Goodyear Tires                 Light-Duty                 10 percent
                        Toyo Tires Corp.               Light-Duty               10 -15 percent


                           Minimum                                                2 percent

                           Maximum                                               15 percent



To ensure fuel-efficient inflation levels, the U.S. Department of Transportation, Federal
Motor Carrier Safety Administration, and tire manufacturers recommend that trucking
fleets check tire pressure monthly. Some large trucking fleets require monitoring of their
vehicles’ tire pressure on a more frequent basis, including weekly. However, tire
inflation checks for the Postal Service fleet are performed during the vehicles’
scheduled maintenance, and there are no contract requirements covering tire inflation
checks for HCR vehicles. Current maintenance requirements for Postal Service
vehicles include tire inflation checks that range from 6 to 26 weeks17 depending on the
type of vehicle, as shown in Table 5. However, the frequencies of the tire inflation
checks are inconsistent with the industry best practices of monthly checks to improve
fuel efficiency.




15
   According to the EPA, Office of Transportation, and Air Quality (OTAQ), a light-duty vehicle is defined as having a
curb weight of 6,000 pounds or less, which would include the Postal Service’s delivery vehicles.
16
   According to the EPA, OTAQ, a heavy-duty vehicle is defined as having a curb weight rating greater than 6,000
pounds, which would include postal-owned and contractor-furnished tractor-trailers.
17
   Per Handbook PO-701, Fleet Management, Section 341.44, March 2001.




                                                          12
Fuel Management Consumption Strategies                                            NL-AR-09-010
 for Surface Network Operations


                           Table 5: Postal Fleet Maintenance Schedule


                                                             Miles Driven per
                           Vehicle Type                                         Frequency
                                                                  Month

                                                              Less than 1,000    26 weeks

                     Cargo Vans (7 and 11 Ton)                 1,000 - 4,000     13 weeks

                                                              More than 4,000    6 weeks

                                                                500 - 2000       17 weeks
                 Intermediate Delivery (1 and 2 Ton)
                                                              More than 2,000    13 weeks

                                                               Less than 500     26 weeks
                            Light Delivery
                                                               More than 500     17 weeks

                                                               Less than 500     26 weeks

                       Light Delivery Minivans                  500 - 1,000      17 weeks

                                                               1,000 - 1,500     13 weeks

                                                              Less than 2,000    13 weeks
                Mack Truck Tractor (Cab Over Engine)
                                                              More than 2,000    6 weeks

                                                              Less than 7,000    13 weeks
               Mack Truck Tractor (Cab Behind Engine)
                                                              More than 7,000    6 weeks

                           Wabash Trailer                                        26 weeks

                        Texas Spotter Tractor                                   200 hours



See Appendix D for a summary of the estimated savings the Postal Service can realize
by implementing fuel-efficient tire inflation practices.

Establishing a Speed Limit for Contracted Vehicles. We found Postal Service contract
requirements do not adequately specify speed limits that would result in more efficient
fuel consumption.

Studies show that for every 1 mph increase above 50 mph, fuel mileage is reduced by
0.1 mpg.18 Further, studies show a 6-percent improvement in fuel consumption can be
realized by reducing speed from 65 to 60 mph, as shown in Table 6.




18
     SmartWay Partnership Studies by the EPA




                                                        13
Fuel Management Consumption Strategies                                                                     NL-AR-09-010
 for Surface Network Operations


                            Table 6: Impact of Speed on Fuel Economy19

                                                     More Fuel
                 Operating Speed                                               Estimated Savings Rate
                                                  Efficient Speed
                        65 mph                          60 mph                          6.4 percent

                        70 mph                          60 mph                         10.9 percent

                        75 mph                          60 mph                         17.3 percent



Industry best practice within the motor carrier industry is to limit speed to approximately
62 mph.20 Further, the Postal Service limits speed to 62 mph on their postal-owned
transportation with the use of computerized vehicle controls or speed governors.
However, HCR supplier contracts do not include a speed limit requirement to conserve
fuel. Industry best practices21 emphasize that limiting speed results in reduced fuel
consumption.

While speed control can save significant amounts of fuel, we could not determine the
impact of reduced speed on Postal Service fuel consumption because each individual
contract highway route must be reviewed extensively to determine the feasibility of
limiting speed. In assessing feasibility, the Postal Service must consider geographic
area, route of travel, service requirements, additional labor costs incurred, and other
operational factors.

Impact of Implementing Best Practices

If the Postal Service implements key fuel-efficient best practices, we estimate drivers
could reduce fuel use by more than 25 million gallons annually for postal-owned,
leased, and contractor-furnished vehicles. The Postal Service would save about
$364.2 million in fuel costs.22 In addition, implementation of these key industry best
practices will facilitate further achievement of fuel consumption goals as outlined in the
Postal Service’s Strategic Transformation Plan.23




19
   Kenworth, White Paper on Fuel Economy, August 2008
20
   Optimum speed is influenced by specifications of engine and transmission combinations, and torque to gearing
ratios.
21
   Studies show that 40 percent of transportation executives make speed restriction a fuel management practice
priority.
22
   Given the recent volatility and current escalation in fuel prices (as detailed in Appendix A), the financial benefits of
removing more than 25 million gallons of fuel from its surface network operations can proportionately and significantly
increase as fuel costs rise. For example, if fuel prices return to the level reached in the summer of 2008, the value of
these savings opportunities could potentially increase to as much as $782 million.
23
   The United States Postal Service Strategic Transformation Plan 2006–2010 (updated in December 2007),
addresses reducing energy use in transportation operations by optimizing the postal-owned fleet and seeking out the
best value available in contract transportation.




                                                            14
Fuel Management Conumption Strategies                                                                                                                               NL-AR-09-010
 for Surface Network Operations


                                  APPENDIX C: FUEL COST SAVINGS SUMMARY FOR AERODYNAMIC EQUIPMENT

The OIG identified $335,904,461 in funds put to better use over the next 10 years by implementing industry best practices for
aerodynamic equipment on postal-owned, leased, and contractor provided trailers. We utilized the following two formulas, summarizing
our calculations in Tables 8 and 9.
                                                          Calculation of Annual Gallons Saved on Diesel Fuel
                                                         Base Fuel × Savings Rate = Annual Savings Diesel Fuel

                                                            245,300,439 gallons × 8 percent = 19,624,035 gallons

                                                          Annual Savings Amount for Base Year Calculation
                                           Annual Savings Diesel Fuel × Current Diesel Price = Current Annual Savings Amount

                                                            19,624,035 gallons × $2.50 per gallon = $49,060,088

                                                             Table 8: Present Value of Annual Savings
 Project Year          0             1            2             3            4             5            6             7            8             9            10

     Fiscal Year     2010           2011         2012          2013         2014         2015         2016          2017         2018           2019         2020    Total Savings
Escalated
Amount24           $ 49,060,088   49,648,809   50,244,595    50,847,530   51,457,700   52,075,192   52,700,095   53,332,496    53,972,486     54,620,156   55,275,598 $524,174,655

Present
Value
      25           $ 49,060,088   47,969,864   46,903,867    45,861,559   44,842,413   43,845,915   42,871,561   41,918,860    40,987,329     40,076,500   39,185,911 $434,463,779



                                                                    Table 9: Summary of Net Savings
                                                        Present Value of Saved Fuel Costs                    $434,463,779
                                                        Less: Equipment Implementation
                                                                                                             $ 98,559,318
                                                        Costs26
                                                        Present Value of Net Savings                         $335,904,461




24
   The escalation rate used to calculate the Estimated Amount is the Postal Service's cost escalation rate of 1.2 percent for energy items.
25
   The discount rate used to calculate the Present Value amounts is the Postal Service’s borrowing rate of 3.5 percent.
26
   The equipment implementation cost is based on a total of 52,481 postal-owned, leased, and contractor-provided trailers with an estimated
equipment and installation cost of $1,878 per unit. The Postal Service might obtain better pricing through negotiations.
                                                                                          15
Fuel Management Conumption Strategies                                                                NL-AR-09-010
 for Surface Network Operations


           Methodology and Assumptions - Calculation of Fuel Cost Savings for
                              Aerodynamic Equipment

We calculated the savings based on the following methodology and assumptions:

          We identified aerodynamic equipment and improvements used by the highway
           transportation and logistics industries that will improve fuel economy for the
           postal fleet and highway contractors. We noted various types of equipment
           currently being considered and implemented in tractor-trailer fleets for the
           purposes of increasing fuel efficiency. Of the equipment currently used by the
           industry, we identified two improvements that reduce vehicle wind resistance and
           are feasible for adoption on postal-owned, leased, and HCR supplier trailers: side
           fairings (trailer skirts) and gap fairings.

          Based on industry studies, the trailer skirts and gap fairings can provide fuel
           consumption savings of 6 percent and 2 percent, respectively; a total savings
           rate of 8 percent. According to industry studies, side and gap fairings savings
           rates range from 6 to 7.5 percent and 2 to 9 percent, respectively, resulting in a
           total savings range of 8 to 16.5 percent. We applied the most conservative
           approach to our impact calculations and used the lower end of the savings range
           of 8 percent.

          Using the savings rates for side fairings (trailer skirts) and gap fairings, we
           calculated an estimated annual fuel reduction in fuel gallons for vehicles with
           HCR and postal-owned and leased trailers by applying the savings rates to
           FY 2008 actual fuel consumption figures.27

          We adjusted the net present value of the estimated savings by deducting an
           estimated wholesale cost of purchasing and installing the equipment on all
           postal-owned, leased, and contractor-furnished trailers.

          We did not project future fuel volumes based on historical data, because of
           fluctuating mail volumes. FY 2008 fuel consumption figures were
           used throughout the 10-year monetary impact projection.

          Other incidental costs associated with the implementation of this opportunity
           could not be quantified at this time and should be identified during the
           development of the strategy by the Postal Service.




27
     Postal Service’s “Energy Initiatives, Energy Spend Report, End-of-Year”, Supply Management, FY 2008.




                                                         16
Fuel Management Conumption Strategies                                                                      NL-AR-09-010
 for Surface Network Operations


                      APPENDIX D: FUEL COST SAVINGS SUMMARY FOR
                           PROPER TIRE INFLATION PRACTICES

The OIG identified $28,290,622 in funds put to better use over the next 2 years by
implementing industry best practices for proper tire inflation for postal-owned, leased,
and contractor-provided vehicles. We summarized our calculations in Table 10.

                                      Table 10: Summary of Savings

                                                                                      Annual Savings30
       Fuel           Base Fuel           Saving                       29
                                                         Fuel Price
       Type           (gallons)28          Rate                                 Year 1                 Year 2
                                                                                 2011                   2012

                                               HCR Supplier Vehicles

       Diesel        231,617,372         2 percent           $2.50           $11,580,869           $11,580,869

     Gasoline        23,319,279          2 percent           $2.52           $1,175,292             $1,175,292

                                               Postal-Owned Vehicles

       Diesel        10,771,433          2 percent           $2.50            $538,572               $538,572

       Other
                     19,987,195          2 percent         various31          $850,578               $850,578
       Fuels

                             Annual Savings                                  $14,145,311           $14,145,311

                              Total Savings                                              $28,290,622




28
   Based on the Postal Service’s 2008 Energy Spend Report.
29
   This reflects the weekly average fuel price information published by DOE-Energy Information Agency, updated
July 20, 2009.
30
   Annual Savings = Base Fuel times Savings Rate times Fuel Price.
31
   “Other Fuels” consist of 18.6 million gallons of fuel purchased from the Defense Energy Support Center for postal
on-site fuel tanks; 1.1 million gallons of mobile fuel delivered directly to postal vehicles at postal facilities; and .3
million gallons of biodiesel. The fuel prices applied to these various categories ranged from $2.08 to $2.94 per
gallon.




                                                            17
Fuel Management Conumption Strategies                                                                NL-AR-09-010
 for Surface Network Operations


Methodology and Assumptions - Calculation of Fuel Cost Savings for Proper Tire
                           Inflation Practices

We calculated the savings based on the following methodology and assumptions:

     We gathered data from studies conducted by the DOE, EPA, educational non-
      profits/scientific foundations, and industry participants to identify a range of
      proposed fuel consumption saving rates resulting from fuel-efficient tire inflation
      practices.

     Using the industry’s most conservative savings rate of 2 percent,32 we calculated
      an estimated annual savings amount by applying the savings rate to the total fuel
      purchased for postal and HCR vehicles during FY 2008. Fuel figures are based on
      Postal Service FY 2008 actual fuel consumption33.

     For postal-owned vehicles, we only included fuel consumption related to heavy-
      duty vehicles (trucks and cargo vans) in our calculation of potential savings. We
      did not include fuel consumption savings projections for postal light-duty vehicles
      (delivery and administrative vehicles) because of operational considerations.

     Using the estimated annual savings, we estimated the dollar amount the Postal
      Service could potentially realize over a 2-year period by implementing fuel-efficient
      tire inflation practices. We did not project future fuel volumes based on historical
      data because of fluctuating mail volumes. FY 2008 figures were used throughout
      the 2-year monetary impact projection.

     The Postal Service did not track quantity of bulk fuel gallons consumed in FY 2008;
      therefore, we estimated bulk gallons using historical data.

     There may be incidental costs associated with the implementation of this
      opportunity that cannot be quantified at this time and should be identified during
      the development of a strategy by the Postal Service.




32
   Various industry research and studies concluded that companies can reduce fuel consumption by a range of 2 to
15 percent through proper tire inflation maintenance. We applied the low-end of the range of 2 percent.
33
   We obtained base fuel volume figures from the Postal Service’s “Energy Initiatives, Energy Spend Report, End-of-
Year,” Supply Management, FY 2008.




                                                        18
Fuel Management Conumption Strategies                     NL-AR-09-010
 for Surface Network Operations


                      APPENDIX E: MANAGEMENT’S COMMENTS




                                        19
Fuel Management Conumption Strategies        NL-AR-09-010
 for Surface Network Operations




                                        20
Fuel Management Conumption Strategies        NL-AR-09-010
 for Surface Network Operations




                                        21
